           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     UNIVERSITIES’ USE OF SOCIAL
    SECURITY NUMBERS AS STUDENT
       IDENTIFIERS IN REGION IV

    December 2004   A-08-05-15034




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   December 9, 2004                                                                Refer To:

To:     Paul D. Barnes
        Regional Commissioner
         Atlanta

From:   Assistant Inspector General
         for Audit

Subject: Universities’ Use of Social Security Numbers as Student Identifiers in Region IV
        (A-08-05-15034)


        OBJECTIVE

        Our objective was to assess universities’ use of Social Security numbers (SSN) as
        student identifiers and the potential risks associated with such use.

        BACKGROUND
        Millions of students enroll in educational institutions each year. To assist in this
        process, many colleges and universities use students’ SSNs as personal identifiers.
        The American Association of Collegiate Registrars and Admissions Officers found that
        half of member institutions that responded to a 2002 survey used SSNs as the primary
        student identifier.1 Although no single Federal law regulates overall use and disclosure
        of SSNs by colleges and universities, the Privacy Act of 1974, the Family Educational
        Rights and Privacy Act, and the Social Security Act, contain provisions that govern
        disclosure and use of SSNs. See Appendix A for more information on the specific
        provisions of these laws.

        We selected a sample of 16 educational institutions in Region IV.2 For each selected
        school, we interviewed university personnel and reviewed school policies and practices
        for using SSNs. In addition, we identified two schools that no longer used SSNs as
        student identifiers and determined reasons for this change and best practices that could
        be adopted by other schools. See Appendices B and C for additional details regarding

        1
         Academic Transcripts and Records: Survey of Current Practices, April 2002 Special Report, the
        American Association of Collegiate Registrars and Admissions Officers.
        2
         Region IV consists of the following eight states: Alabama, Georgia, Florida, Mississippi, Tennessee,
        South Carolina, North Carolina, and Kentucky.
Page 2 – Paul D. Barnes


the scope and methodology of our review and a list of the universities we contacted,
respectively.

RESULTS OF REVIEW

Based on our interviews with university personnel and reviews of school policies and
practices, we are concerned about universities’ use of SSNs as student identifiers. We
identified numerous instances in which universities used SSNs as the primary student
identifier or for other purposes, even when another identifier would suffice. Based on
our previous audit and investigative findings, we know that unnecessary use of SSNs
increases the potential for unscrupulous individuals to illegitimately gain access to these
numbers and misuse them, thus creating SSN integrity issues. Some university
personnel with whom we spoke shared our concern and have taken steps to reduce
SSN use.

UNIVERSITIES’ USE OF SSNs IS WIDESPREAD

Despite the increasing threat of identity theft, some colleges and universities continue to
use SSNs as primary student identifiers. Our visits to eight colleges and universities
and telephone interviews with eight others in Region IV disclosed that universities’ use
of SSNs is widespread. We determined that some colleges and universities used SSNs
for student identification cards, applications for admissions, class registration, access to
computer systems, class rosters, grade reports, and billing notices.

In addition, we identified numerous instances nationwide in which universities requested
that prospective students provide their SSNs on postcards.3 Colleges and universities
routinely send postcards to be completed by prospective students who have requested
information about the school. These postcards, in addition to name, address and
graduation information, request the prospective student’s SSN. Displaying such
information on a postcard increases the risk of SSN misuse and unnecessarily subjects
the prospective student to the possibility of identity theft.




3
 None of the colleges and universities we contacted in Region IV requested that prospective students
provide their SSNs on postcards.
Page 3 – Paul D. Barnes


                Exhibit 1: Postcard Requesting Student SSN




One university official told us his State has an electronic transcript request system that
requires SSNs. This State-wide student database requires that SSNs match and track
students across educational institutions. Other university officials told us their school
uses the SSN because it is a universal identification number. Although students may
request that the school assign a random nine-digit identification number, officials told us
the school does not encourage this practice. University officials also told us that
campus bookstore personnel ask students for their student identification number (which
is their SSN) to track students’ book purchases.

Another university official told us her school began using SSNs as student identifiers
when it converted from the quarter to semester system in 1977. She told us this
practice gave students a consistent number they could remember. Also, another
university official told us the student identification card includes the SSN. Students use
this card for check cashing, registration, transcript request, and book vouchers. Further,
other university officials told us some students include their SSNs on tests and research
papers.

Although we did not identify instances in which individuals misused students’ SSNs at
the schools we contacted, we believe the potential for such activity exists. In fact,
university personnel acknowledged the potential risks for identity theft and fraud, and
some have taken steps to reduce their reliance on SSNs. One university official told us
her school plans to stop using the SSN as the primary student identification number by
fall 2007 and will only use it for financial aid and tax purposes.
Page 4 – Paul D. Barnes


POTENTIAL RISKS ASSOCIATED WITH COLLECTING AND USING SSNs

While the schools we selected did not report any instances of identity theft or fraud,
many universities’ collection and use of SSNs entail certain risks. Each time an
individual divulges his or her SSN, the potential for a thief to illegitimately gain access to
bank accounts, credit cards, driving records, tax and employment histories and other
private information increases. We believe the following examples illustrate students’
risk of exposure to such activity. Because many universities still use SSNs as the
primary student identifier, students’ exposure to identity theft and fraud remains today.

•      A university professor in Washington was indicted on 33 counts of mail fraud in a
       scam using students’ SSNs. The professor allegedly accessed the university’s
       records system and used students’ information to obtain new SSN cards by
       posing as a parent. The professor then allegedly used the SSNs to obtain credit
       cards and birth certificates.

•      California authorities arrested a man suspected of stealing the names and SSNs
       of 150 college students and using that information to obtain credit cards and
       charge over $200,000 in the students’ names.

•      A New York school notified about 1,800 students that their SSNs and other
       personal information had been posted on a university website. The university
       shut down the website and apologized to the students in an e-mail.

•      A student at a Texas university was accused of hacking into the school’s
       computer network and downloading the names and SSNs of over
       55,000 students, faculty, and alumni.

•      A gentleman discovered a computer printout in a trash bin near a Pennsylvania
       university listing SSNs and other personal data for hundreds of students.

SOME UNIVERSITIES AND STATES HAVE TAKEN STEPS TO LIMIT SSN USE

Numerous incidences of identity theft at colleges and universities and the recognition
that SSNs are linked to vast amounts of personal information have led some schools to
reconsider the practice of using SSNs as primary student identifiers. Several schools
have taken steps to reduce their reliance on SSNs or have turned to alternative
identifiers. In addition, some States have enacted laws to regulate college and
university use of SSNs.

For example, in 2003, the Georgia Institute of Technology (Georgia Tech) stopped
using SSNs of students, faculty, and staff on identification cards and as the primary
means of identification in campus databases because of increased identity theft
concerns. To replace SSNs, Georgia Tech created the Georgia Tech Identification
Number, a unique number the school uses to identify students in most major campus
databases. The Associate Registrar told us the conversion from using SSNs as the
Page 5 – Paul D. Barnes


primary student identifier took about 2 years of planning but was not difficult. In fact,
she stated the actual conversion took only 1 weekend. Georgia Tech has provided
information to other schools to assist them in their SSN conversion efforts. Georgia
Tech collects SSNs for certain services, for example, payroll, immigration and financial
aid.

In 2003, the University of Florida replaced the SSN as a student identifier and key to
student records with an eight-digit public identification number to reduce the visibility of
the SSN during normal university business. The University of Florida changed to an
eight-digit number so students would not confuse it with their SSN. Students also have
a Gatorlink username and password for on-line class registration and other applications.
According to the University Registrar, the conversion from SSNs to an eight-digit
student identifier was challenging as it affected every administrative system. He told us
it took the university 1-2 years of planning before the conversion. The Registrar also
told us that faculty members no longer have access to students’ SSNs. While some
university offices (admissions, registrar, student financial affairs and university financial
services) still need SSNs to perform their duties, faculty and staff do not ask for SSNs,
and students are informed that University personnel should not ask for their SSN. The
University Registrar told us the University of Florida offices will not collect or use SSNs
unless they are needed for State and federally mandated requirements.

Other colleges and universities have taken steps to limit SSN use. Arizona State
University, the University of Michigan, Penn State University, the University of Maryland,
the University of Illinois, and the University of Texas have specific policies regarding
SSN disclosure and use and have stopped using SSNs as the primary student
identification number. In addition, several States, including Arizona, New York,
Maryland, Rhode Island, and Wisconsin have enacted laws to regulate college and
university SSN use.

CONCLUSION AND RECOMMENDATIONS
Despite the potential risks associated with using SSNs as primary student identifiers,
many colleges and universities continue this practice. While we recognize that SSA
cannot prohibit colleges and universities from using SSNs as student identifiers, we
believe SSA can help reduce potential threats to SSN integrity by encouraging schools
to limit SSN collection and use. We also recognize the challenge of educating such a
large number of educational institutions. However, given the potential threats to SSN
integrity, such a challenge should not discourage SSA from taking steps to safeguard
SSNs. Accordingly, we recommend that SSA:

1. Coordinate with colleges/universities and State/regional educational associations to
   educate the university community about the potential risks associated with using
   SSNs as student identifiers.

2. Encourage colleges and universities to limit their collection and use of SSNs.
Page 6 – Paul D. Barnes


3. Promote the best practices of educational institutions that no longer use SSNs as
   student identifiers.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. We believe SSA’s response and planned
actions adequately address our recommendations and will help strengthen SSN
integrity. The full text of SSA’s comments is included in Appendix D.




                                               S
                                               Steven L. Schaeffer
                                      Appendices
APPENDIX A – Federal Laws that Govern Disclosure and Use of the Social Security
             Number

APPENDIX B – Scope and Methodology

APPENDIX C – Educational Institutions Contacted

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                                    Appendix A
Federal Laws that Govern Disclosure and Use of the
Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974 (5 U.S.C. § 552a, note; Pub. L. No. 93-579, §§ 7(a) and 7(b))

The Privacy Act of 1974 provides that it is unlawful for a State government agency to
deny any person a right, benefit, or privilege provided by law based on the individual’s
refusal to disclose his/her SSN, unless such disclosure was required to verify the
individual’s identity under a statute or regulation in effect before January 1, 1975.
Further, under Section 7(b), a State agency requesting that an individual disclose
his/her SSN must inform the individual whether the disclosure is voluntary or
mandatory, by what statutory or other authority the SSN is solicited, and what uses will
be made of the SSN.

The Family Educational Rights and Privacy Act (20 U.S.C. § 1232g; 34 CFR Part 99)

The Family Educational Rights and Privacy Act (FERPA) protects the privacy of student
education records. FERPA applies to those schools that receive funds under an
applicable program of the U.S. Department of Education. Under FERPA, an
educational institution must have written permission from the parent or eligible student
to release any personally identifiable information (which includes SSNs) from a
student’s education record.1 FERPA does, however, provide certain exceptions in
which a school is allowed to disclose records without consent. These exceptions
include disclosure without consent to university personnel internally who have a
legitimate educational interest in the information, to officials of institutions where the
student is seeking to enroll/transfer, to parties to whom the student is applying for
financial aid, to the parent of a dependent student, to appropriate parties in compliance
with a judicial order or lawfully issued subpoena, or to health care providers in the event
of a health or safety emergency.




1
  FERPA gives parents certain rights with respect to their children’s education records. These rights
transfer to the child when the child reaches the age of 18 or attends an institution of postsecondary
education. Children that have been transferred rights are referred to as “eligible students.”
The Social Security Act

The Social Security Act provides that “Social Security account numbers and related
records that are obtained or maintained by authorized persons pursuant to any
provision of law, enacted on or after October 1, 1990, shall be confidential, and that no
authorized person shall disclose any such Social Security account number or related
record.” (42 U.S.C. §405(c)(2)(C)(viii)). The Social Security Act also provides that
“[w]hoever discloses, uses, or compels the disclosure of the social security number of
any person in violation of the laws of the United States; shall be guilty of a felony…”
(42 U.S.C. §408(a)(8)).




                                        A-2
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we

•   interviewed selected university personnel responsible for student
    admissions/registrations;

•   reviewed Internet websites of 18 colleges and universities that we contacted;

•   reviewed applicable laws and regulations; and

•   reviewed selected studies, articles and reports regarding universities’ use of Social
    Security numbers as student identifiers.

We visited eight educational institutions and interviewed personnel at eight others to
learn more about their policies and practices for using Social Security numbers as
student identifiers. In addition, we identified two schools that no longer used Social
Security numbers as student identifiers and determined reasons for this change and
best practices that could be adopted by other schools. The Social Security
Administration entity reviewed was the Office of the Deputy Commissioner for
Operations. We conducted our audit from June through September 2004 in accordance
with generally accepted government auditing standards.
                                                                                 Appendix C

Educational Institutions Contacted
We interviewed personnel at 18 educational institutions in Region IV. The following
table shows the names and locations of these schools as well as their total student
enrollments.


                            School                           Location            Student Enrollment

    1      University of Florida                     Gainesville, Florida               48,000

    2      Florida State University                  Tallahassee, Florida               36,683

    3      University of Kentucky                    Lexington, Kentucky                34,182

    4      Georgia State University                  Atlanta, Georgia                   28,170

    5      University of South Carolina – Columbia   Columbia, South Carolina           25,288

    6      East Carolina University                  Greenville, North                  21,756
                                                     Carolina

    7      Middle Tennessee State University         Murfreesboro, Tennessee            21,163

    8      Georgia Institute of Technology           Atlanta, Georgia                   16,643

    9      University of Alabama at Birmingham       Birmingham, Alabama                16,357

   10      Mississippi State University              Starkville, Mississippi            16,226

   11      Tennessee Tech University                 Cookeville, Tennessee              9,107

   12      Jefferson State Community College         Birmingham, Alabama                7,376

   13      North Carolina Central University         Durham, North Carolina             7,191

   14      Gulf Coast Community College              Panama City, Florida               5,341

   15      Kentucky State University                 Frankfort, Kentucky                2,315

   16      Mississippi University for Women          Columbus, Mississippi              2,100

   17      Atlanta Metropolitan College              Atlanta, Georgia                   1,907

   18      Anderson College                          Anderson, South Carolina           1,600

Source: We determined student enrollment by reviewing university websites or one of the following
websites: www.collegeboard.com or www.uscollegesearch.org.
                  Appendix D

Agency Comments
The Atlanta Region welcomes the opportunity to review and provide feedback on the
OIG Draft Report, "Universities' Use of Social Security Numbers as Student Identifiers in
Region IV" (A-08-05-15034).

We offer the following comments on the recommendations presented:

1. Coordinate with colleges/universities and State/regional educational associations to
   educate the university community about the potential risks associated with using
   SSNs as student identifiers.

Comments: The Atlanta Region supports this recommendation. We will stress to
the institutions and educational associations in the Region the potential risks
associated with using SSNs as student identifiers. We will work through our
local offices to educate the colleges/universities throughout the Region.

2. Encourage colleges and universities to limit their collection and use of SSNs.

Comments: We are in agreement with this recommendation and we will
discourage the collection and use of the SSN by colleges and universities.

3. Promote the best practices of educational institutions that no longer use SSNs as
   student identifiers.

Comments: We support this recommendation. We will seek information from
various institutions and promote the best practices of educational institutions
that no longer use SSNs as student identifiers.


Questions concerning these comments may be directed to Ray West of the RSI
Programs Team at (404) 562-1321.

                                                         /s/
                                                   Paul D. Barnes
                                                   Regional Commissioner




                                           D-1
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

   Neha Smith, Auditor-in-Charge

   Kathy Youngblood, Senior Auditor

   Susan Phillips, Auditor

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-08-05-15034.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
